No. 19-863
IN1HE

$)upreme ~ourt of t~e Wniteb ~tates
AGUSTO Niz-CHAVEZ,

Petitioner,
V.

WILLIAMP. BARR, ATTORNEY GENERAL,

Respondent.
CERTIFICATE OF SERVICE
l hereby certify that I am a member in good standing of the bar of this Court and that on this
13th day of August, 2020, I caused three copies of the Brief of Thirty-Three Former Immigration
Judges and Members of the Board of Immigration Appeals as Amici Curiae in Support of Petitioner
to be served by third-party commercial earner on the counsel identified below, and caused an
electronic version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules
of this Court. All parties required to be served have been served.
David J. Zimmer

GOOD\VTN PROCTER LLP

l 00 Northern Avenue
Boston, MA 02210
(617) 570-1000

dzinuner@goodwinlaw.com
Counsel/or Petitioner

Jeffrey B. Wall
Acting Solicitor General

U.S. DEPARTMENT OF JUSTLCE

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

